FEDERAL TRADE COMMISSION
 Audited Financial Statements
     for Fiscal Year 2004




OFFICE OF INSPECTOR GENERAL
                                      FEDERAL TRADE COMMISSION
                                        WASHINGTON, D.C. 20580
     OFflCE OF
INSPECTOR GENERAL




        Chairman Majoras:

        The Office of Inspector General has audited the Federal Trade Commission's (the
        Commission) Balance Sheets as of September 30,2004 and 2003, and the related Statements
        of Net Cost, Statements of Changes in Net Position, Statements of Budgetary Resources,
        Statements of Financing, and Statements of Custodial Activity for the years then ended, and
        has considered internal control over financial reporting and the FTC7scompliance with laws
        and regulations.

                                         Opinion on Financial Statements

        In our opinion, the financial statements referred to above, including the notes thereto,
        present fairly, in all material respects, the Commission's assets, liabilities and net position as
        of September 30,2004 and 2003, and the net costs and changes in net position, its budgetary
        resources, financing and custodial activities for the years then ended, in conformity with
        accounting principles generally accepted in the United States.

                                         Other Accompanying Information

       Our audits were conducted for the purpose of forming an opinion on the FY 2004 and 2003
       principal financial statements of the Commission taken as a whole. The information
       discussed below is presented for purposes of additional analysis and is not a required part of
       ;the principal financial statements.

                    The information in the Required Supplementary Information section has been
                    subjected to the auditing procedures applied in the audit of the Commission's
                    principal financial statements and, in our opinion, is fairly stated in all material
                    respects in relation to the principal hancial statements taken as a whole.

                    Performance measurement information contained in the Management Discussion and
                    Analysis and Program Performance sections of the Commission's annual financial
                    statements contains additional information required by the Federal Accounting
                    Standards Advisory Board. We have applied certain limited procedures, which
                    consisted principally of inquiries of management regarding the methods of
                    measurement and presentation of h s additional information. However, we did not
                    audit the information and express no opinion on it. This information is, however,
                    addressed in our assessment of internal control discussed below.
                                 .Opinion.on Internal Control

 In planning and perforining our audits, we considered the Federal Trade Commission's
internal control over financial reporting by obtaining an understanding of the Commission's
internal control, determined whether internal controls had been placed in operation, assessed
control risk, and performed tests of controls in order to determine our auditing procedures
for the purpose of expressing our opinion on the financial statements. We limitedc&
internal control testing to those controls necessary to achieve the objectives described in
OMB-Bulletin No. 01-02, "Audit Requirements for Federal Financial Statements ". We did
not test all internal controls-relevant to operating objectives as broadly defined by the
Federal Managers7 Financial Integrity Act of 1982, such as those controls relevant to
ensuring efficient operations. The objective of our audit was not to provide assurance on
internal control. Consequently, we do not provide an opinion on internal control.

With respect to internal control related to performance measures reported in the
Management Discussion and Analysis and Program Performance sections, we obtained an
understanding of the design of significant internal controls relating to the existence and
completeness assertions, as required by OMB Bulletin No. 01-02. Our procedures were not
designed to provide assurance on internal con&-01over reported performance measures, and,
accordingly, we do not provide an opinion on such controls.

                                   Reportable Conditions

 Our consideration of the internal control over financial reporting would not necessarily
 disclose all matters in the internal control over financial reporting that might be reportable
conditions. Under standards issued by the American Institute of Certified Public
Accountants, reportable conditions are matters corning to our attention relating to significant
deficiencies in the design or operation of the internal control that, in our judgment, could
adversely affect the Commission's ability to record, process, summarize, and report
financial data consistent with the assertions of management in the financial statements.
Material weaknesses are reportable conditions in which the design or operation of one or
more of the specific internal control components does not reduce to a relatively low level the
risk that misstatements in amounts that would be material in relation to the financial
statements being audited may occur and not be detected within a timely period by
employees in the normal course of performing their assigned functions. Because of inherent
limitations in internal controls, misstatements, losses, or noncompliance may nevertheless
occur and not be detected. However, we noted no matters involving the internal control and
its operation that we considered to be material weaknesses as defined above.

We noted certain other matters involving the internal control over financial reporting that we
have reported to the Commission's management in a separate letter (Management Letter AR
05-062A).
                           Compliance with Laws and Regulations

As part of obtaining reasonable assurance about whether the financial statements are f?ee of
material misstatement, we performed tests of the Commission's compliance with certain
provisions of laws and regulations, noncompliance with which could have a direct and
material effect on the determination .of financial statement amounts and certain other laws
and regulations specified in OMB Bulletin No. 01-02, including the requirements referredm
in the Federal Financial Management Improvement Act (FFMIA) of 1996. We limited our
tests of compliance to these provisions and we did not test compliance with all laws and
regulations applicable to the Commission. However, the objective of our audit of these
financial statements, including our tests of compliance with selected provisions of applicable
laws and regulations, was not to provide an opinion on overall compliance with such
provisions. Accordingly, we do not express such an opinion.

Material instances of -noncompliance are failures to follow requirements, or violations of
prohibitions contained in statutes and regulations, that cause us to conclude that the
aggregation of the misstatements resulting fkom those failures or violations is material to the
statement of financial position referred to above or that sensitivity warrants disclosure
thereof.

The results of our test of compliance disclosed no instances of noncompliance with laws and
regulations that are required to be reported under Government Auditing Standards or OMB
Bulletin No. 01-02.

Under FEMLA, we are required to report whether the agency's financial management
systems substantially comply with the Federal financial management systems requirements,
Federal accounting standards, and the United States Government Standard General Ledger
at the transaction level. To meet this requirement, we performed tests of compliance with
FFMLA. Section 803 (a) requirements.

The results of our tests disclosed no instances in which the agency's financial management
systems did not substantially comply with the three requirements discussed in the preceding
paragraph.

With respect to items not tested, nothing came to our attention to cause us to believe the
Commission had not complied, in all respects, with those provisions.

                             Responsibilities and Methodology

Management has the responsibility for:
       preparing the hancial statements in conformity with generally accepted a&ounting
       principles described in Note 1 t.0 the financial statements;

       establishing and maintaining an effective internal control over financial reporting;
       and

       complying with applicable laws and regulations.
Our responsibility is to express an opinion on these financial statements based on our audit.
Generally accepted auditing standards require that we plan and perform the audit to obtain
reasonable assurance about whether' the financial statements are fiee of material
misrepresentation and presented fairly in accordance with the generally accepted accounting
principles. We performed tests of controls in order to determine our auditing procedures for
the purpose of expressing our opinion on these financial=statementsand not to provide an
opinion on the internal control over financial reporting. We are also responsible for tesGg
compliance with selected provisions of applicable laws and regulations that may materially
affect the financial statements.

In order to fu1fii.l these responsibilities, we
        obtained an understanding of the design of relevant internal controls and determined
        whether they had been placed in operation;

        assessed control risk;

        examined, on a test basis, evidence supporting the amounts and disclosures in the
        financial statements;   -

       assessed the accounting principles used and significant estimates made by
       management;

       evaluated the overall presentation of the financial statements;

       tested compliance with selected provisions of the .laws and regulations that. may
       materially affect the financia1,statements;and . .
                   other procedures that we considered necessary in the circumstances.

Our audits were conducted in accordance with auditing standards generally accepted in the
United States; Government Auditing Standards, as issued by the Comptroller General of the
United States; and OMB Bulletin No. 01-02. We believe that our audits provide a
reasonable basis for our opinion.

While this report is intended solely for the information and use of the Federal Trade
Commission, the Office of Management and Budget and the Congress, it is also a matter of
public record, and its distribution is, therefore, not restricted.




Washington, D.C.                                    Inspector ~ e n e r d l v
October 29,2004                                     Federal Trade Commission
                             FEDERAL TRADE COMMISSION
                                    BALANCE SHEETS
                            As of September 30,2004 and 2003
                                       (Dollars in thousands)




entity Assets:
     lntragovernmental Assets:
          Fund Balance with Treasury (Note 2)                     $     44,627
          Accounts Receivable, Net (Note 4)                                1.21
    Total lntragovernmental Assets                                      44,748

      ~dvancesand Prepayments                                               -
      Property, .Plant, and Equipment, Net (Note 5)                     .14,270
~ d t aEntity
        l     Assets                                                    59,018

Non-Entity Assets:
     lntragovernmental Assets:
          Fund Balance with Treasury (Note 2)                           . I9,531
    Cash and Other Monetary Assets (Note 3)                            1I1,489
    Accounts Receivable, Net (Note 4)                                   62,879
Total Non-Entity Assets                                                193,899

Total -Assets




                   The accompanying notes are an integral part of these statements.
                                 'FEDERAL TRADE COMMISSION
                                       'BALANCE SHEETS
                                As of ~eptember30,2004 and 2003
                                      (Dollars in thousands)




Liabilities:
    Liabilities Covered by Budgetary Resources:
          lntragovernmental Liabilities:
               Accrued Benefits
               Accounts Payable
          Total lntragovernmental Liabilities

         With the Public:
              Accounts Payable
              Accrued Salaries
     Total Liabilities Covered by Budgetary Resources

     Liabilities Not Covered by Budgetary Resources:
          lntragovernmental Liabilities:
                Undisbursed Premerger Filing Fees
                Other Liabilities (Note 6)
         Total lntragovernmental Liabilities

         Actuarial FECA Liabilities
         Accrued Annual Leave
         With the Public (Note 6)
     Total Liabilities Not Covered by 'Budgetary Resources

Total Liabilities

Net Position: (Note 7)
    Balances:
         Unexpended Appropriations
         Cumulative Results of Operations
Total Net Position

Total Liabilities and Net Position




                    The accompanying notes are an integral part of these statements.
                          FEDERAL TRADE COMMISSION
                           STATEMENTS OF NET COST
                 For the Years Ended September 30,2004 and 2003
                                     (Dollars in thousands)




Program Costs
    Maintaininq competition Mission:
        lntragovernmental gross costs
        Less: lntragovernmental earned revenue
        lntragovernmental net costs     .

        Gross costs with the public
        Less: Earned revenue with the public (Note 12)
        Net costs with the public

    Net Cost Maintaining Competition Mission

    Consumer Protection Mission:
       lntragovernmental gross costs
       Less: lntragovernmentalearned revenue
       lntragovernmental net costs

        Gross costs with the public
        .Less: Earned revenue with the public (Note 12)
        Net costs with the public

    Net Cost Consumer Protection Mission                              90,008             87,228

Net Cost of Operations                                          $     87,463        $   112,333




                  The accompanying notes are an integralpart of these statements.
                                      FEDERAL TRADE COMMISSION
                              STATEMENTS OF CHANGES IN NET POSlTlON
                             For the Years Ended September 30,2004 and 2003
                                            (Dollars in thousands)



                                                                                                                      -
                                                                                                                L.
                                                                                                                     c-
                                                                 2004                                  2003
                                                   Cumulative                            Cumulative
                                                    Results of       Unexpended           Results of       Unexpended
                                                   Operations       Appropriations   '   Operations       Appropriations

Beginning Balances

        Budgetary ~inancingSources:

            Appropriations Received
            Appropriations Transferred-Inlout
            Other Adjustments (Rescissions)
            Appropriations Used


        Other Financing Sources:

             Imputed Financing (Note 9)

    Total Financing Sources

    Net Cost of Operations

'Ending .Balances




                       The accompanying notes are an integral part of these statements.
                            FEDERAL TRADE COMMISSION
                     STATEMENTS OF BUDGETARY RESOURCES
                   For the Years Ended September 30,2004 and 2003
                                       (Dollars in thousands)




 Budgetary Resources:
  . Budget authority
    .   Appropriation
        Net Transfers - Current Year Authority
        Net Transfers - Prior Year Balances
     ~nobli~ated-~alance:
        Beginning of Period
    Spending Authority from Offsetting Collections
        Earned
             Collected
             Receivable from Federal Sources
        Change in Unfilled Customer Orders
             Without Advance from Federal Sources
        Anticipated for rest of year, without advances
    Recoveries of Prior Year Obligation

     Temporary Not Available pursuant to Public Law
     Enacted Reductions
        Rescissions - New Budget Authority

Total .Budgetary:Resources

Status of Budgetary Resources:
    Obligations incurred
        Direct
        Reimbursable
        Subtotal
    Unobligated Balance
        Available
        Not Available

Total Status of Budgetary Resources

Summary of Obligations and Outlays:

Obligated balance net beginning of period
    Obligated balance net end of period:
        Accounts receivable
        Unfilled customer orders from federal sources
        Undelivered orders
        Accounts payable

Total obligated balance net end of period

    Outlays:
        disbursements
        Collections

Net Outlays



                        The accompanying notes are an integralpart of fhese stafements.
                                        FEDERAL TRADE COMMISSION
                                         STATEMENTS OF FINANCING
                              For the Years Ended September 30,2004 and 2003
                                                   (Dollars in thousands)




Resources Used to Finance Activities:
Budgetary Resources Obligated
    Obligations incurred
   ,Less: Spending authority from offsetting collections and recoveries
   Obligations net of offsetting collections and recoveries

Other Resources
    Imputed financing from costs absorbed by others
Total Resources Used to Finance Activities

Resources Used to Finance Items not Part of the Cost of Operations:
   Change in budgetary resources obligated for goods
       and services ordered but not yet received or provided
   Resources that finance the acquistion of assets
   Total resources used to finance items not part of the net cost of operations

Total Resources Used to Finance the Net Cost of Operations

Components of the Net Cost of Operafions that will not Require or
   Generate Resources in the Current Period:
   Components Requiring or Generating Resources in Future Periods:
   Increase in annual leave liability
   (Decrease) increase in FECA liability ,
   Total components of the net cost of operations that will not require or
        generate resources in future periods

    Compofients not Requiring or Generating Resources:
    Depreciation and amortization
    Change in accounting estimates (Note 15)
    Loss on disposition of asset
    Total components of the Net Cost of Operations that will not require or
        generate resources
Total Components of the Net Cost of Operations that will not Require or
    Generate Resources in the Current Period

Net Cost of Operations




                             The accompanyingnotes are an integralpart of these statemenfs.
                                       FEDERAL TRADE COMMISSION
                                   STATEMENTS OF CUSTODIAL ACTIVITY
                              For the Years Ended September 30,2004 and 2003
                                                  (Dollars i n thousands)


                                                      (Refer t o Note.1I )


                                                          MC Mission             CP Mission        2004 Total       2003 Total
Sources of Collections:
   Cash Collections:
        Prernerger Filing Fees (Net of Refunds) (a)       $       82.1 90    $                 $      82,190    $       57,600
       Civil Penalties and Fines (b)                                 756              5,786            6,542             8,506
       Redress (c)                                                                  337,585          337,585           701,768
       Divestiture Fund (d)                                          184                -                184               216
       Funeral Rule Violations                                                           30               30                13
   Net Collections                                                83,130            343,401          426,531           168,103

    Accrual Adjustments (e)                                          -             (179,016)        (179,016)          147,065

Total Non-exchange Revenues                               $       83,130     $      164,385    $     247,515    $      315,168

Disposition of Revenue Collected:
    Amounts Transferred to:
        Treasury General Fund
        Department of Justice
        Receivers (f)
        Redress to Claimants (g)
        Contractor Fees Net of Interest Earned (h)
        Attorney Fees (h)
   Net Disbursements

    Change in Liability Accounts (i)                               5,115           (160,856)        (155,741)          149,231

Total Disposition of Revenues Collected                  $        83,130     $      164,385    $    247,515     $      315,168

Net Custodial Collections                                $    .              $                 $                $
                                                FEDERAL 'RADE COMMISSldN
                                           REQUIRED SUP1 .EMENTARY INFORMATION
                                              As of Septc ~ber30,2004 and 2003
                                                        (Do    rs in thousands)




.   lntragovernmental Assets:
                                                  Fund B       ~ n c ewith Treasury   Accounts           Total          Total
    Tradina Partner Aaencv:                         Entit      -       Non-Entity     Receivable         2004           2003
    Treasury                                      $      44    27    $      19,531    $              $     64,158   $     47,255
    Agency for International Development                                                       59              59             86
    Other Government Agencies                                  -                               62              62            145
    Total lntragovernmental Assets                $      44          $      19,531    $
                                                               -                               121   $     64,279   $     47,486



    lntragovernrnental Liabilities:
                                                      Accruc             Accounts                        Total          Total
    Tradina Partner Aaencv:                           Benefi   -          Payable         NA             2004           2003
    Covered by Budgetary Resources:

    Department of Commerce                        $
    Department of Labor
    U.S. Postal Inspection Service
    Departmentof Justice
    Government Printing Ofice
    General Services Administration
    Ofice of Personnel Management     .
    Department of Treasury

    Total Covered by Budgetary Resources          $

    Not Covered by Budgetary Resources:

    Department of Justice
    Department of Labor
    Department of Treasury

    Total Not Covered by Budgetary Resources      $
                             FEDERAL TRADE COMMISSION
                           Required Supplementary Information
                    For the Years Ended September 30,2004 and 2003
                                    (Dollars in thousands)


Exchange Revenue from Reimbursable Agreements                        -
                                                                     i--




Trading 'Partner:

U.S. Agency for International Development
U.S. Department of State
Department of Justice
Federal Mine Safety & Health Review Commission
Department of the Treasury
U.S. Trade and Development Agency
Medicare Payment Advisory CommissionIGSA
U.S. Postal Inspection Service
Department of Commerce
U.S. Environmental Protection Agency
U.S. Patent and Trademark Office

Total Exchange Revenue from Reimbursable Agreements

Related Costs:

.Budnet .Function Classification:

Other Advancement of Commerce

Total Related Costs
                          FEDERAL TRADE COMMISSION
                        Required Supplementary Information
                 For the Years Ended September 30,2004 and 2003
                                     (Dollars in thousands)


                                                                                         -
                                                                                        c-s=


  lntragovernmental Expenses:       .


  Trading Partner:

  General Services Administration
  Office of Personnel Management
  Social Security Administration
  Department of the Interior
  Department of Transportation
  Government Printing Office
  Department of Labor
  Department of Health and Human Services
  United States Postal Service
- Department of Justice
  National Archives and Records Administration
  Veterans Administration
  Department of State
  Department of the Treasury
  Other

  Total lntragovernmental Expenses


  Mission:

  Maintaining Competition                                     $   19,692   $   20,443
  Consumer Protection                                             25,063       23,052

  Total lntragovernmental Expenses                            $   44,755   $   43,495
                          FEDERAL TRADE COMMISSION
                         Notes to the Financial Statements
               ,For the Years Ended September 30,2004 and 2003


NOTE 7   -- SUMMARY OF SlGNlFlCANT ACCOUNTlNG POLlClES
(a)    Reporting Enfr'ty

The Federal Trade Commission (FTC) was created by the Federal ~ra-&
Commission Act of 1914. The FTC enforces a variety of federal antitrust and
consumer protection laws. The FTC seeks to ensure that the nation's markets
function competitively and are vigorous, efficient, and free of undue restrictions.
The FTC also works to enhance the smooth operation of the marketplace by
eliminating acts or practices that are unfair or deceptive. in general, the FTC's
efforts are directed toward stopping actions that threaten consumers' opportunities
to exercise informed choice. Finally, the .FTC undertakes economic analysis to
support its law enforcement efforts and to contribute to the policy deliberations of
the Congress, the Executive Branch, other independent agencies, and state and
local governments when requested.

(b)    Fund Accounting Structure

The FTC's financial activities are accounted for by federal account symbol. They
include the accounts for appropriated funds and other fund groups described below
for which the FTC maintains financial records, and consumer redress accounts for
which the agency has management oversight.

 General Funds Consist of salaries and expense appropriation accounts used to
fund agency operations and capital expenditures.

'Deposif Funds    Consist of monies held temporarily by the FTC as an agent for
others.

Suspense Funds       Represent receipts awaiting proper classification, or held in
escrow, until ownership is established and proper distributions can be made.

Receipf Accounfs Reflect civil penalties and other miscellaneous receipts that are
collected but not retained by the FTC. Cash balances are automatically transferred
to the general fund of the Treasury at the end of each fiscal year.

(c)   Basis of Accounting and Presentation

The financial statements present the financial position, net cost of operations,
changes in net position, budgetary resources, financing, and custodial activities of
the FTC, in accordance with accounting principles generally accepted in the United
States of America and the form and content requirements of OMB Bulletin 01-09.
They have been prepared from the books and records of the FTC and include the
accounts of all funds under the control of the FTC. Accounting principles generally
                        FEDERAL TRADE COMMISSION
                       Notes to the Financial Statements
               For the Years Ended September 30,2004 and 2003


accepted in the United States of America encompass both accrual and budgetary
transactions. Under the accrual method, revenues are recognized when earned
and expenses are recognized when a liability is incurred, without regard to receipt
or payment of cash. Budgetary accounting facilitates compliance with legal
constraints and controls over the use of federal funds. The accompanying financhl
statements are prepared on the accrual basis of accounting.

In ad.dition, the accompanying statements include information on the activities of
the agency's consumer redress program. Independent agents are contracted to
administer the program under the oversight of FTC program offices, which maintain
the financial records for consumer redress activity.

(d)    Budget Authority

Congress annually passes appropriations that provide the FTC with authority to
obligate funds for necessary expenses to carry out mandated program activities.
These funds are available until expended. The funds appropriated are subject to
OMB apportionment of funds in addition to Congressional restrictions on the
expenditure of funds. Also, the FTC places internal restrictions to .ensure the
efficient and proper use of all funds. Appropriated funding is derived from various
revenues and financing sources.

(e)   Fund Balances with the US. Treasury

With the exception of cash held in consumer redress custodial accounts by FTC's
contracted agents, the FTC does not maintain cash in commercial bank accounts.
Cash receipts and disbursements are processed by the U.S. Treasury. Fund
balances with Treasury consist of appropriated funds that are available to pay
current liabilities and to finance authorized purchase commitments, and restricted
funds, which include deposit and suspense funds. The FTC's fund balances with
Treasury are carried forward until such time as goods or services are received and
payment is made, or until the funds are returned to the US. Treasury.

(9    Advances and Prepayments

Payments in advance of the receipt of goods and services are recorded as
advances and recognized as expenses when the related goods and services are
received. Advances are principally advances to FTC employees for official travel.

(g)   Accounts Receivable

Entity accounts receivable include amounts due from other federal entities and from
current and former employees and vendors. Non-entity accounts receivable include
civil monetary penalties imposed as a result of the FTC's enforcement activities,
                            FEDERAL TRADE COMMISSION
                           Notes t o the Financial Statements
                   For the Years Ended September 30,2004 and 2003


uncollected redress judgments, and amounts due from receivers. Since the FTC
does not retain these receipts, a corresponding liability is also recorded for non-
entity accounts receivable.
                                                                                    -Jnu

Opening judgment receivable balances reflect the Federal Accounting standard;
Advisory Board (FASAB) standard for the recognition of losses using the collection
criterion of "more likely than not." This criterion results in receivable balances that
are more conservatively stated than those valued by the private sector under
generally accepted accounting principles. The Board states that it is appropriate to
recognize the nature of federal receivables, which, unlike trade accounts of private
firms or loans made by banks, are not created through credit screening procedures.
Rather, these receivables arise because of the assessment of fines from regulatory
violations. In these circumstances, historical experience and economic factors
indicate that these types of claims are frequently not fully collectible.

The FTC recognizes an allowance for uncollectible non-entity accounts receivable
by individual account analysis based on the debtor's ability and willingness to pay,
and the probable recovery of amounts from secondary sources, including liens,
garnishments, and other applicable collection tools. Entity accounts receivable are
considered fully collectible, and therefore no allowance is recorded.

(h)   '   Property and Equipment       .   .


Commercial vendors and the General Services Administration, which charges the
FTC a Standard Level Users Charge (SLUC) that approximates the commercial
rental rates for similar properties, provide the land and bui1din.g~in which the FTC
operates.

Property and equipment consist of equipment, leasehold improvements, and
software. All items with an acquisition value greater than $100,000 and a useful life
over two years are capitalized using the straight-line method. Service lives range
from three to twenty years.

Internal use software development and acquisition costs of $100,000 are
capitalized as software development in progress until the development stage has
been completed and the software successfully tested. Upon completion and testing,
software development-in-progress costs are reclassified as internal use software
costs and amortized using the straight-line method over the estimated useful life of
three years. Purchased commercial software that does not meet the capitalization
criteria is expensed.

(0        Liabilities

Liabilities represent the amount of monies or other resources that are likely to be
                            FEDERAL TRADE COMMISSION
                    .   '  Notes to the Financial Statements
                   For the Years Ended September 30,2004 and 2003


    paid as the result of a transaction or event that has already occurred. Liabilities
    classified as not covered by budgetary resources are liabilities for which
    appropriations have not been enacted and liabilities resulting from ihe agency's
.   custodial activities. See Note I I . Also, the Government, acting in its sovereign
                                                                                     -
    capacity, can abrogate FTC liabilities (other than 'contracts).

    )       Undisbursed Premerger Filing Fees

    A liability is recorded for undisbursed filing fees collected under the Hart-Scott-
    .Rodin0 (HSR) Antitrust Improvements Act of 1976, which are due to the
    Department of Justice in a subsequent period.

    (k)     Federal Employees' Compensation Act (FECAJ Actuarial Liability and
            Accrued .FECA Claims

    The FTC records an estimated liability for future workers' compensation claims
    based on data provided from the Department of Labor (DOL). The FTC also
    records a liability for actual claims paid on its behalf by the DOL.

    (I) .   Accrued Leave

    A liability for annual leave is accrued as leave is earned and reduced when leave is
    taken. At year end, the balance in the accrued annual leave account is adjusted to
    reflect the I'iability at current pay rates and leave balances. Accrued annual leave is
    paid from future funding sources and, accordingly, is reflected as a liability not
    covered by budgetary resources. Sick and other leave is expensed as taken.

    (m)     Employee Health Benefits and Life Insurance

    FTC employees are eligible to participate in the contributory Federal Employees
    Health Benefit Program (FEHBP) and the Federal Employees Group Life lnsurance
    Program (FEGLIP). The FTC matches the employee contributions to each program
    to pay for current benefits.

    (n)     Post-Retirement Health Benefits and Life lnsurance

    FTC employees eligible'to participate in the FEHBP and the FEGLIP may continue
    to participate in these programs after their retirement. The Office of Personnel
    Management (OPM) has provided the FTC with certain cost factors that estimate
    the true cost of providing the post-retirement benefit to current employees. The
    FTC recognizes a current cost for these and other retirement benefits (ORB) at the
    time the employee's services are rendered. The ORB expense is financed by
    OPM, and offset by the FTC through the recognition of an imputed financing source
    on the Statement of Financing. During fiscal years 2004 and 2003, the cost factors
                        FEDERAL TRADE COMMISSION
                       Notes to the Financial Statements
               For the Years Ended September 30,2004 and 2003


relating to FEHBP were $4,420 and $3,766, respectively, per employee enrolled.
During fiscal years 2004 and 2003,. the cost factor relating to FEGLIP was 0.02
percent of basic pay per employee enrolled. See Note 9, Imputsd Financing.

(4     Employee Retirement Benefits

FTC employees participate in either the Civil Service Retirement System (CSRS) or
the Federal Employees Retirement System (FERS). Employees hired after
December 31, 1983, are covered by FERS and Social Security, while employees
hired prior to January 1, 1984, may elect to either join FERS or remain in CSRS.
Approximately 27 percent of FTC employees participate in CSRS. For employees
participating in CSRS, the FTC contributes 7 percent of the employee's gross
earnings to the CSRS Retirement and Disability Fund. For employees participating
in FERS, the FTC contributes 10.7 percent to the Federal Employees' Retirement
Fund. Employees participating in FERS are covered under the Federal Insurance
Contributions Act (FICA) for which the FTC contributes a matching amount to the
Social Security Administration. FTC contributions are recognized as current
operating expenses.

The Thrift Savings Plan (TSP) is a defined contribution retirement savings and
investment plan for employees covered by either CSRS or FERS. CSRS
 participating employees may contribute up to 9 percent of earnings for 2004, 8
percent for 2003, to TSP, but do not receive a matching contribution from the FTC.
FERS participating employees may contribute up to 14 percent and 13 percent of
earnings for the years 2004 and 2003, respectively, to the TSP plan. For FERS
employees, the FTC contributes Ipercent of the employee's gross pay to the TSP.
The FTC also matches 100 percent of the first 3 percent contributed and 50 percent
of the next 2 percent contributed. FTC contributions are recognized as current
operating expenses. Although the FTC contributes a portion for pension benefits
and makes the necessary payroll withholdings, it is not responsible for contribution
refunds, employee's retirement benefits, or the retirement plan assets. Therefore,
the FTC financial statements do not report CSRS and FERS assets, accumulated
plan benefits, or unfunded liabilities, if any, which may be applicable to employees.
Such reporting is the responsibility of OPM.

However, the FTC recognizes the full cost of providing future pension benefits to
covered employees at the time the employees' services are rendered. OPM has
provided the FTC with certain cost factors that estimate the true service cost of
providing the pension benefits to covered employees. The cost factors used to
arrive at the service cost are 25 percent of basic pay for CSRS-covered employees
and 12 percent of basic pay for FERS-covered employees during fiscal years 2004
and 2003. The pension expense recognized in the financial statements equals this
service cost to covered employees less amounts contributed by these employees. If
the pension expense exceeds the amount contributed by the FTC as employer, the
                        FEDERAL TRADE COMMISSION
                       Notes to the Financial Statements
               For the Years Ended September 30,2004 and 2003


excess is recognized as an imputed financing cost. The excess total pension
expense over the amount contributed by the agency must be financed by OPM and
is recognized as an imputed financing source, non-exchange revenue.
                                                                                   -
                                                                                  ?a-

(p)    Net Position

The FTC's net position is composed of the following:

Unexpended appropriations include the amount of unobligated balances and
undelivered orders. Unobligated balances are the amount of appropriations or other
authority remaining after deducting the cumulative obligations from the amount
available for obligation.

Cumulative results of operations represent the net results of operations since
inception, the cumulative amount of prior period adjustments, the remaining book
value of capitalized assets, and future funding requirements.

(q)    Exchange Revenues

The Federal Accounting Standards Advisory Board defines exchange revenue as
inflows of resources to a governmental entity that the entity has earned. They arise
from exchange transactions that occur when each party to the transaction sacrifices
value and receives value in return.

Exchange revenues are earned through the collection of fees under the Hart-Scott-
Rodino Act. This Act, in part, requires the filing of premerger notifications with the
FTC and the Antitrust Division of the Department of Justice (DOJ) and establishes
a waiting period before certain acquisitions may be consummated. Mergers with
transaction amounts over $50 million require the acquiring party to pay a filing fee.
The filing fees are based on the transaction amount and follow a three-tiered
structure: $45,000, $125,000, and $280,000. The FTC retains one-half of the HSR
premerger filing fees collected.      Revenue is recognized when all required
documentation under the HSR Act has been received by the agency. Fees not
retained by the FTC are maintained in a suspense fund until transferred to the DOJ
and not reported as revenue to the FTC.

Exchange revenues are also earned through the collection of fees for the national
Do Not Call Registry. This registry operates under Section 5 of the FTC Act, which
enforces the Telemarketing Sales Rule (TSR). The Do Not Call Implementation Act,
P.L. 108-010, gives the FTC authority to establish fees for fiscal years 2003 through
2007 sufficient to offset the implementation and enforcement of the provisions
relating to the Do Not Call Registry. Fees collected over expenses are retained for
use in other FTC missions. Authority to create the registry was ratified in Public
Law 108-082. Consumers may register a preference not to receive telemarketing
                         FEDERAL TRADE COMMISSION
                        Notes to the Financial Statements
               For the Years Ended September 30,2004 and 2003


calls. Telemarketers are required to pay an annual subscription fee and download
from the Do Not Call database a list of telephone numbers of consumers who do
not wish to receive calls. Fees are based on the number of area codes
downloaded. The minimum charge was $25 for downloading one area code. The
maximum charge was $7,375 for all-area codes within the United States. ~ffec$&
September 3, 2004, the new minimum charge is $40 and the maximum charge is
$1 1,000.

Exchange revenue is also earned for services provided to other Government
agencies through reimbursable agreements. The FTC recovers the full cost of
services, primarily salaries and related expenses. Revenue is earned at the time
the expenditures are incurred against the reimbursable order. All exchange
revenues are deducted from the full cost of the FTC's programs to arrive at net
program cost.

(r)   Appropriations Used

In addition to exchange revenue, the FTC receives financing sources through direct
appropriation from the general fund of the Treasury to support its operations. A
financing source, appropriations used, is recognized to the extent these
appropriated funds have been consumed. In fiscal years 2004 and 2003, the FTC
received a financing source in the form of a direct appropriation that represented
approximately 46 percent and 63 percent of total revenues and financing sources
realized.

(s)   Methodology for Assigning Cost

Total costs were allocated to each mission based on two components: a) direct
costs to each mission and b) indirect costs based on the percentage of direct FTE
.used by each mission.'

(f)   Comparative Data

Certain 2003 line items on the Statements of Net Cost have been reclassified to
conform with the current year's presentation.
                               FEDERAL TRADE COMMISSION
                              Notes to the Financial Statements
                     For the Years Ended September 30,2004 and 2003

. 'NOTE 2 - FUND BALANCES :WITH TREASURY

Fund balances with Treasury consisted of the following at September 30, 2004 and
2003:                                                                         ,-a&
                                                                                                                         -
 lDollars in thousands)                            1 [ Unobligated I] Unobligated      1    2004     [1     2003
                                       /   obigated     Available 11 Not available     I    Total    I/     Total
 General Funds Entity                  /  $ 36,200 1 $      1,027 ( 1 $    7,400       1$   44.627   (1   $ 40,900   1
 General Funds Non-Entity:              1            1             11                  1             i

  Undisbursed Prernerger Filing Fees   11                                                    6,530   1       1,600
  Deposit Funds - Redress                       - . i
                                                       t
                                                                   II           -     1f    13,001   j       4,755 1
  Total Non-Entity                     1              ff              1                1    19,531   1       6,355
                                                                     II                              t
Total                                      $ 36,200   I/ $   1,027   if $
                                                       f $ 64,158 / $ 47,255  7,400
                                       I               I
                                                      II             Ii
                                                                  ll---l
The obligated balance includes accounts payable and undelivered orders that have
reduced unexpended appropriations but have not yet decreased the cash balance
on hand.

.Other lnformafion Deposit and suspense funds stated above are not available to
finance FTC activities and are classified as non-entity assets, and a corresponding
liability is recorded.

NOTE 3      -   CASH AND OTHER MONETARY ASSETS

 Cash and other monetary assets held as non-entity assets consist of redress
judgment amounts on deposit with the FTC's distribution agents, receivers and
divestiture fund deposits. A corresponding liability is recorded for these assets.

Cash and other monetary assets consisted of the following as of September 30,
2004 and 2003:

JDollars in thousands)


Non-Entity:
 -    Redress Contractors                                    $       70,113     $      60,199
      Divestiture Fund (Note I I(d))

Total Non-Entity                                             $   111,489        $     101,391
                            FEDERAL TRADE COMMISSION
                           Notes to the Financial Statements
                  For the Years Ended September 30,2004 and 2003


NOTE 4     -- ACCOUNTS RECEIVABLE
Accounts receivable consisted of the following as of September 30, 2004 and 2003:


                                Currently Due           Allowance

 Intragovernmental-



  Non-Entity Assets:
- Consumer    Redress
  Civil Penalties
                                                                                                  i

 Total Non-EntityAssets         1$   502,172       (    $ 439,293        ,,   $       62,879     ,1 $   241,895
                                                   I                                              f
For more detailed information on non-entity receivables, see Exhibit A.

NOTE 5    -- PROPERTY, PLANT, AND EQUIPMENT, NET
Capitalized property and equipment, net of accumulated depreciation, consisted of
the following as of September 30, 2004 and 2003:


                               Service   (       Acquisition    1 Accumulated                Net     I Net
        Asset Class              Life              Value        1 ~ e ~ ~ r e c i a t1 i oBook
                                                                                          n    Value 1 Book Value
                                             i                  I
Equipment & Furniture      (5-20 yrs         1 $        5,433        $        2,592          $        2,841   $    3,329
Leasehold lm provem ents    10-1 5 yrs                  4,683                   71 5                  3,968        3,116
Software                    3 years                     2,542    1            1,591                     951   1    1,404
Software-in-Development    _         _                 _
                                                        6,510    [
                                                                 .                _              _
                                                                                                      6,510 _ 1    1,289
                                                                I\
Total                                        ,$        19,168        $        4,898     ,    $       14,270   1$   9,138
                                             1                                          I1                    I
Property and equipment are depreciated using the straight-line method.
Depreciation expense was $1.9 million and $1.4 million for fiscal years ending
September 30, 2004 and 2003, respectively and is contained in the accumulated
depreciation.
                                   FEDERAL TRADE COMMISSION
                                  Notes to the Financial Statements
                          For the Years Ended September 30,2004 and 2003


    NOTE 6     -- LIABILITIES NOT COVERED BY BUDGETARY RESOURCES
    Liabilities not covered by budgetary resources consisted of the following as of
    September 30,2004 and 2003:                                                  -           <-c-




    (a)     lntragovernmental and With the Public


'JDollars in t h o u s a n d s )             1.
                                             I
                                                       2004      11        2003      I
 Intragovernrnental                                               I
   Other Liabilities:                      I I
                                                                 1I
                                                                 1 1                 J
       Civil Penalty Collections Due       11 $            985   f1$         2,105
       Accrued FECA Claims                 If              395   11           433
                                             i                   II
    Total                                  If     $'     1,380   1-1   $     2.53
                                                                                     I
                                                                                     I
r
    With the Public
     Undis bursed Redress
     Divestiture Fund Due
                                             L
                                             1$
                                             I
                                                        83.114
                                                        41,376
                                                                   1
                                                                 1 1

                                                                   15
                                                                   1
                                                                            64.954
                                                                            41 ,I
                                                                                92
                                                                                     '   '



     Redress Net Collections Due                        61,894    1        239,790
                                             f
                                           I I
                                                                  I
                                                                 i1
    Total                              .   ([$         186,384   11 $      345,936
I                                          II                    II
(b)         Other ln formation

Civil Penalty Collections Due represents the contra account for accounts receivable
due for civil monetary penalties, which will be transferred to the general fund of the
Treasury upon receipt.

Accrued FECA Claims consists of workers compensation claims payable to the
Department of Labor (DOL), which will be funded in a future period.

Undisbursed Redress includes redress in FTC's Treasury deposit account, or with
FTC redress contractors.

,Divestiture Fund Due represents the contra account for the divestiture fund held by
one of FTC's contractors until distribution of the funds is ordered per terms of the
agreement.

Redress Net Collections Due represents the contra account for accounts receivable
due from judgments obtained as a result of the agency's consumer redress
litigation.
                          FEDERAL TRADE COMMISSION
                         Notes to the Financial Statements
                 For the Years Ended September 30,2004 and 2003


NOTE 7    -- NET POSITION
Net position consisted of the following as of September 30, 2004 and 2003:

   (Dollars in thousands1                   2004         f   '2003
   Unexpended Appropriations:                           f
    Unobligated -Available              $          20   I$      113
    Undelivered Orders .                           16 It         29
   Total Unexpended Appropriations                 36 1 1       142
                                                        II            I




 I                           iI      II                               I
NOTE 8 .-- COMMITMENTS AND CONTINGENCIES

Commitments The FTC is committed under obligations for goods and services that
have been ordered but not yet received (undelivered orders) at fiscal year end.
Undelivered orders were $22.7 million and $20.0 million as of September 30, 2004
and 2003, respectively.

Continaencies The FTC is a party in various administrative proceedings, legal
actions, and claims brought by or against it. In the opinion of FTC management and
legal counsel, the ultimate resolution of these proceedings, actions, and claims will
not materially affect the financial position or the results of operation of the FTC.

On November 14, 2002, the Court of Federal Claims granted the plaintiffs' motion
for a summary judgment in a case brought by Department of Justice (DOJ) trial
attorneys seeking overtime pay. The ruling indicated the attorneys were entitled to
additional overtime pay, but did not establish either an amount of damages or
methodology for calculating such an amount. On January 17, 2003, the court
granted the DOJ1smotion to stay the proceedings and allow an interlocutory appeal
under 28 U.S.C. Sec. 1292 to the United States Court of Appeals for the Federal
Circuit. A three-judge panel at the Federal Circuit found that the DOJ attorneys
were not entitled to overtime pay. The DOJ attorneys have filed a petition for a
rehearing of the case by the full Federal Circuit.

According to the FTC1s General Counsel, the circumstances underlying the DOJ
case differ significantly from the circumstances for attorneys and other FLSA-
                                FEDERAL TRADE COMMISSION
                               Notes to the Financial Statements
                       For the Years Ended September 30,2004 and 2003


    .exempt employees at the FTC, and the FTC's ultimate potential exposure in such a
    case would be limited and in any event would turn on individual, not class action,
    claims.

    Leases The FTC rents approximately 568,000 square feet of space in b o g              ,

    commercial and government-owned properties for use as offices, storage and
    parking. Space leases for governmknt-owned property are made with the General
    Services Administration (GSA).
r                                            .     %-



    Leases of commercial property are made through and managed by GSA. The
    Commission has leases on 4 government-owned properties and 10 commercial
    properties. The FTC's current leases expire at various dates through 2012. Two
    leases provide for tenant improvement allowances totaling $7.1 million, and provide
    that these costs be amortized over the length of the leases. Under the terms of the
    leases, the FTC agrees to reimburse the landlord for the principal balance of the
    unamortized portion of the tenant improvement allowance in the event the agency
    vacates the space before lease expiration. The leases expire in 2005 and 2012.

    Rent expenditures for the years ended September 30, 2004 and 2003, were
    approximately $17.1 million and $16.8, respectively. The $16.8 million of rent
    expenditures is net of a GSA credit of approximately $1.9 million for fiscal year
    2003, relating to the main headquarters building. In fiscal year 2004 GSA
    discontinued the rent discount program that it provided to federal agencies.

    Future minimum lease payments due under leases of government-owned property
    as of September 30, 2004, are as follows:

    JDollars in thousands.)               fi   :



    Fiscal Year                                                  1


                                          Ii
    Total Future Minimum Lease Payments   [1$           10,808
                                          1             7        1
                                           FEDERAL TRADE COMMISSION
                                          Notes to the Financial Statements
                                 For the Years Ended September 30,2004 and 2003


        Future minimum lease payments under leases of commercial property due as of
        September 30, 2004 are as follows:


                                                                I i
                                                                                                                                 --
                                                                                                                                --

    f ~ i s c aYear
               l                                                I I
                                                                                    I
        2005                                                    /I$        11.226/
        2006                                                     I         10,678
        2007                                                    1f         10,825
        2008                                                    If         11,025'
        2009                                                               1 1,032
        Thereafter                                                1        22,095
                                                                  I
                                                                  f
        Total Future Minimum Lease Payments                      1$        76,881
                                                                 I                  1I
                  -- IMPUTED FINANCING
    I                                                           II

    NOTE 9

    lmputed 'financing recognizes actual costs of future benefits. which include the
    FEHBP, FEGLI, a n d pension benefits that are paid by other federal entities.
    lmputed financing was composed of the following:

        (Dollars in thousands)              I       2004        11     .   2003
                     II                     1
                                                                iI
                                                                1I
        FEHBP        f                      f $         4,0491 $                 3,439
        FEGLlP       1                      !              13 f                     13
        Pension Benefits                                2,915 1                  2,893
                     I
                     I
                                           II                   tt I                     I
    Total imputed Costs                    1$           6,977   11$             6,345    1
                     I                     m                      i                      II
                          --
f                    1 .                    I                   I I

NOTE 10                        PENSION EXPENSE

Pension expenses in 2004 and 2003 consisted of the following:

    jDollars in thousands1                        11                        I
                                                                                                     2004        1           2003
                                                    /    Employer           f                    Total Pension   I       Total Pension
                                                  1)    Contributions       [imputed Costs         Expense       f         Expense
                                                    I                                                                '
    Civil Service Retirement System               I! $           1,906      1$           2,785   $      4,691 f          $      4,697
    Federal Employee Retirement System            1I             7,217      f              130          7,347        -
                                                                                                                     6,771
3                                     -                                r                                2,998        2,761
                                                    i                      11
        Total                                     )I$           12,121     f f-
                                                                              $ 2,915 $                15,036            $     14,229
                                                  I 1

                                                                           rI
I                                                  I
                             FEDERAL TRADE COMMISSION
                            Notes to the Financial Statements
                   For the Years Ended September 30,2004 and 2003


'   NOTE 17   -- CUSTODIAL ACTlVlTlES
    The FTC functions in a custodial capacity with respect to revenue transferred or
    transferable to recipient government entities or the public. These amounts are not
    reported as revenue to the FTC. The major components of the FTC's c u s t o d ~ i
    activities are discussed below.

    (a)    Premerger Filing Fees

    All Hart-Scott-Rodino (HSR) premerger filing fees are collected by the FTC
    pursuant to section 605 of P.L. 101-162, as amended, and are divided evenly
    between the FTC and the Department of Justice (DOJ). The collected amounts are
    then credited to the appropriations accounts of the two agencies (FTC's "Salaries
    and Expenses" and DOJ's "Salaries and Expenses, Antitrust Division"). During
    fiscal years 2004 and 2003, respectively, FTC collected $167.4 million and $113.4
    million in HSR fees. Total collections in the amount of $83.6 million were retained
    for distribution, of which $77.3 million was transferred to DOJ in 2004 and $56.0
    million in 2003. As of September 30, 2004 the undistributed collections remaining in .
    the amount of $6.5 million represent amounts to be transferred to DOJ in a future
    period.

    ~(b)   .CivilPenalties and Fines

Civil penalties collected in connection with the settlement or litigation of the FTC's
administrative or federal court cases are collected by either the FTC or DOJ as
provided for by law. DOJ assesses a fee equivalent to 3 percent of amounts
collected before remitting them to the FTC. The FTC then deposits these
collections into the U.S. Treasury. Civil penalties collected also include amounts
collected for undecided civil penalty cases held in suspense until final disposition of
the case.

    (c)    Redress

The FTC obtains consumer redress in connection with the settlement or litigation of
both its administrative and its federal court cases. The FTC attempts to distribute
funds thus obtained to consumers whenever possible. If covsumer redress is not
practical, the funds are paid (disgorged) to the U. S. Treasury, or on occasion, other
alternatives, such as consumer education, are explored. Major components of the
program include eligibility determination, disbursing redress to claimants, and
accounting for the disposition of these funds. Collections made against court-
ordered judgments totaled $337.6 million and $101.8 million during fiscal years
2004 and 2003, respectively.
                             FEDERAL TRADE COMMISSION
                            Notes to the Financial Statements
                    For the Years Ended September 30,2004 and 2003


The sources of these collections are as follows:




                         1   1   '                 f   '

 Receivers               f !           1,085 f     1        6,291    1
 FTC                                  77.469 1     !       24.049    1
                         I 1$
                         I   I                 I   1

Total                                337,585   (   1$      101,768


 (a')      Divesfifure Fund

One judgment obtained by the FTC on behalf of its Maintaining Competition
mission stipulates the divestiture of assets by the defendants into an interest-
bearing account to be monitored by the agency. The balance of the account
represents principal and related interest held in one of the FTC's contractor
accounts as stipulated in the judgment. A corresponding liability is recorded.

Divestiture Fund activity in fiscal years 2004 and 2003 consisted of the following:

/Dollars in thousandsl                                          I        2004     .   f    2003       1
      1.        I                                               I                     it              I
       Beginning Balance                                        1$        41,19211$         40,975
       Interest /                                               I
                                                                I           261 1 1            34 1
       Expense I                                                I               (77)/ 1       (124)




(e)        Accrual Adjusfments

These adjustments represent the difference between the agency's opening and
closing accounts receivable balances. Accounts receivable are the funds owed to
the agency (as a custodian) and ultimately to consumers or other entities. See
Exhibit A for computation of accrual adjustments to the Statement of Custodial
Activity. .

(          Receivers

This amount represents the funds forwarded to receivers during the year for
distribution to consumers. The agency recorded an asset, Due from Receivers,
and a corresponding liability, Receivers Distributions Due, for the amount of funds
forwarded. These balances are reduced as the distributions to consumers are
confirmed.
                           FEDERAL TRADE COMMISSION
                          Notes to the Financial Statements
                  For the Years Ended September 30,2004 and 2003


(g)    ,   Redress to Claimants

Redress to claimants consists of amounts distributed to consumers by the FTC,
one of its contracted agents, the court appointed receiver, or the defendant. In
fiscal year 2004 a total of $294.1 million was distributed to consumers: ~ 2 9 3 %
million was paid by the FTC and its contracted agents, and $1.I million was paid by
receivers. In fiscal year 2003, a total of $69.6 million was distributed to consumers:
$63.3 million was paid by the FTC and its contracted agents, and $6.3 million was
distributed by receivers.

 (h)       Contractor Fees Net of lnterest Earned

Collections against monetary judgments are often deposited with one of the
agency's two redress contractors until distributions to consumers occur. Funds are
deposited in interest-bearing accounts, and the interest earnings are used to fund
administrative expenses. Contractor expenses for the administration of redress
activities and funds management amounted to $8.0 million and $5.3 million during
the years ended September 30, 2004 and 2003, respectively. The significant
increase in expense is due to one case in which approximately 2 million claims
notifications were sent and 846,000 consumer checks were issued. Expense also
includes costs for a consumer education campaign in lieu of distributions to
consumers for one redress case. lnterest earned was $367,000 and $354,000
during fiscal years 2004 and 2003, respectively, with the difference of $7.6 million
and $4.9 million representing net expense.

Attorney fees of $3.2 million related to three cases during fiscal year 2004 and
$11.I million related to one case during fiscal year 2003.

(i)        Change in Liabiljty Accounts

Liability accounts contain funds that are in the custody of the agency or its agents,
and are owed to others (consumers, receivers for fees, andlor the Department of
Justice). See Exhibit B for the computation of liability account changes.

0)         Current Year Judgments

A judgment is a formal decision handed down by a court. Redress judgments
 include amounts that defendants have agreed, or are ordered, to pay for the
purpose of making restitution to consumers deemed to have been harmed by the
actions of the defendant(s) in the case. For purposes of presentation in Exhibit A,
redress judgments include cases in which the FTC, or one of its agents, is directly
involved in the collection or distribution of consumer redress. In fiscal years 2004
and 2003, the agency obtained and reported in Exhibit A monetary redress
judgments against defendants totaling $445.5 million and $379.8 million,
                          FEDERAL TRADE COMMISSION
                         Notes to the Financial Statements
                For the Years Ended September 30,2004 and 2003

respectively.
                                .   .

The FTC does not include in the presentation of Exhibit A current redress judgment
cases in which the FTC, or one of its agents, is not directly involved with the
collection or distribution of consumer redress. These are cases in which t h g
defendant, or other third party, has been ordered to pay redress directly to the
consumers. There were five such cases in fiscal year 2004, of which judgments
totaled-$626,000. In most of4hese cases, the judgment has ordered redress in the
form of refunds or credits.

The agency also obtained civil penalty judgments of $6.0 million and $9.3 million in
fiscal years 2004 and 2003, respectively.

(k)    Treasury Referrals and Prior Year Recoveries

Monetary judgments six months or more past due are referred to the Department of
Treasury for follow-up collection efforts in keeping with the Debt Collection
Improvement Act of 1996 (DCIA). Treasury's Debt Management Services (DMS)
administers the program, and deducts 18 percent from amounts ultimately collected
for its fee. Collections, net of fees, are returned to the FTC for distribution to either
consumers, in the form of redress, or to the general fund of the Treasury as
disgorged amounts. In fiscal years 2004 and 2003, $41,000 and $88,000 (net of
fees) were collected based on FTC referrals and are reported as collections on the
Statements of Custodial Activity. The FTC refers to DMS only those cases as
defined in DCIA. This excludes cases that are in receivership, or bankruptcy or
foreign debt. During 2004 and 2003, $2.0 million and $5.9 million were referred to
the DMS for collection.

Prior year recoveries include amounts collected on cases that were written off in a
previous year. In fiscal years 2004 and 2003, $914,000 and $10.2 million were
collected, which includes the DMS collections.

(I)    Adjustments to the Allowance

Adjustments to the allowance for redress, totaling $286.7 million represent amounts
formally written off during the year in the amount of $3.7 million and adjustments to
the provision for uncollectible amounts of $283.0 million.
                            FEDERAL TRADE COMMISSION
                           Notes to the Financial Statements
                  For the Years Ended September 30,2004 and 2003


NOTE 12     -- EARNED REVENUES
Earned revenue with the public consisted of the following:

(Dollars in thousands)        1       2004      If    2003      I                 -
                                                                                 rrQ




                              I
H S R Premerger filing fees   /   $    83,598   j1$    56,015
Do Not Call Registry fees     i        13,984   11      5,239
                              I                 11
Total                         1$       97,582   1 $   61,254
                              i                 I
HSR premerger filing fees earned represent one-half of fees collected under the
provisions of the Hart-Scott-Rodino Act. See Nofe I (q), Exchange Revenues.
Revenue is recognized when earned; i.e., all required documentation under the
HSR Act has been received by the agency.

Do Not Call Registry fees represent collections of subscription fees paid by
telemarketers under the Do Not Call Implementation Act,.P. L. 108-010. See Note
 I (q), Exchange Revenues. Revenue is recognized when collected and the
Telemarketer is given access to download data from the Do Not Call database.
The Do Not Call Registry was implemented during fiscal year 2003 and began
operations in September 2003.

NOTE 13     - STATEMENT OF NET COST
The Statements of Net Cost are consolidated for the FTC using a Budget
Functional Classification (BFC) code. BFC codes are used to classify budget
resources presented in the Budget of the United States Government per OMB. FTC
is categorized under BFC code 376 - Other Advancement of Commerce. Gross
cost and earned revenue for the FTC fall under this code, regardless of whether the
fees are intragovernmental or with the public.
                               FEDERAL TRADE COMMISSION
                              Notes to the Financial Statements
                     For the Years Ended September 30,2004 and 2003




NOTE 14       -- STATUS OF BUDGETARY RESOURCES
(a)       Apportionment Categories of Obligations Incurred

Obligations incurred reported on the Statement of Budgetary Resources in 2004
and 2003 consisted of the following:

JDoIlars in thousands)                      1    2004   11       2003
      I          I                                        I
Direct Obligations:                         !           1
   /category A                              1$   89,213 1 $      106,257
      I          !                          I            f
      I          i                          I            iI
Reimbursable Obliaations:
                 "                                           I

   Category A                               I    98,856 1 f      70,201
   Category B                                           I
                                                    848 1           797
      6
                 I
                 I
                                            1          II    I
      I ~ o t aReimbursable
               l            Obligations     i
                                            I    99,704 1        70,998
      I            I                        I            f i




(6)  Explanation of Differences Between the Statement of Budgetary
Resources and the Budget of the United Sfafes Government

The Budget of the United States Government with actual amounts for the year
ended September 30, 2004, has not been published as of the issue date of these
financial statements. This document will be available in December 2004.
                        FEDERAL TRADE COMMISSION
                       Notes to the Financial Statements
               For the Years Ended September 30,2004 and 2003


NOTE 15 - CHANGE IN ACCOUNTING ESTIMATES

In fiscal year 2003, the FTC changed the percentages estimated for development
costs for software expenditures. Accounting standards require that the effects of-a
change in estimate should be reported in the period of change and subsequefit
periods. The net effect of this change in estimate for fiscal year 2003 was a
$758,403 charge to expense. This was the result of the reclassification from
capitalized software to software maintenance expense. The depreciation expense
recognized had this change in estimate not been recorded would have been
$252,801 in each of fiscal years 2003,2004 and 2005. See Note 5 - Properfy and
Equipment, Net.
                                                          FEDERAL TRADE COMMISSION                                                            Exhibit A
                                                    Notes to the Statements of Custodial Activity
                                                                Accrual Adjustments
                                                            September 30,2004 and 2003
                                                               (Dollars i n thousands)




                                                MC Mission                              CP Mission
Part 1                                          Civil Penalty     Civil Penalty          Redress       Subtotal CP         2004
                                                                                                                           Total            2003
                                                                                                                                            Total

Judgments Receivable - Net Beginning

Add:

 Current Year Judgments (Note 1I j )
 Prior Year Recoveries (Note IIk)

Less:

 Collections by FTClContractors Receivers
 Collections by DOJ for Litigation Feeslother

Less:

 Adjustments to Allowance (Note 1II)

                          -
Judgments Receivable Net, Ending

Part 2

                      -
Judgments Receivable Net Ending                 $                $          985     $        61,894    $    62,879     $
                      -
Judgments Receivable Net Beginning                                        2,105             239,790        241,895            62,879
                                                                                                                             241,895    $     241,895
                                                                                                                                               94,830
Accrual Adjustment                              $                $       (1.120)    $      (177,896)   $   (179,016)   $    (179.016)   $     147,065
                                                                            FEDERAL TRADE COMMlSSibN                                                                           Exhibit B
                                                                    ~ o t e to
                                                                            s the Statements of Custodial Activity
                                                                              Change in Liability Accounts
                                                                              September 30,2004 and 2003
                                                                                 (Dollars in thousands)




                                                           .' MC Mlssion                                                                  CP Mlssion
                                   Pre-Merger         Divestiture     Civil Penaity       .          MC
                                                                                              ~ubtotai'              Civil Penalty         Redress       Subtotal-CP         Total

Liabilities @ 09130104                                                                                               $        985     $       145,008    $   145,993     $     193,899

Liabilities @ 09130103                                                                                               $      2,105     $       304,744    $   306,849     $     349,640

Change In Liability Accounts                                                                                         5      (1.120)   $      (159.736)   $   (160,856)   $    (155,741)




                                                               MC Mlssion                                                                 CP Mission
                                   Pre-Merger         Divestiture      Civil Penalty              Subtotal MC        Civil Penalty         Redress       Subtotal-CP         Total

Liabilities @ 09/30/03         $         1,600    $        41,191       $                     $         42,791

Liabilities @ 09/30/02                   1,683             40,975                                       42,658

Change in Liability Accounts   $           (83)   $           216       $                     $            133
